                                            SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              OFFICE OF INSPECTIONS

                              Inspection of the Office of the
                              Special Envoy for Middle East Peace


                              Report Number ISP-I-11-50, May 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                            SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




     PURPOSE, SCOPE, AND METHODOLOGY
            OF THE INSPECTION
This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General
for the U.S. Department of State (Department) and the Broadcasting Board of
Governors (BBG).

Purpose and Scope
The Office of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the opera-
tions of the Department and the BBG. Inspections cover three broad areas,
consistent with Section 209 of the Foreign Service Act of 1980:
•   Policy Implementation: whether policy goals and objectives are being effec-
    tively achieved; whether U.S. interests are being accurately and effectively
    represented; and whether all elements of an office or mission are being
    adequately coordinated.
•   Resource Management: whether resources are being used and managed
    with maximum efficiency, effectiveness, and economy and whether
    financial transactions and accounts are properly conducted, maintained,
    and reported.
•   Management Controls: whether the administration of activities and opera-
    tions meets the requirements of applicable laws and regulations; whether
    internal management controls have been instituted to ensure quality
    of performance and reduce the likelihood of mismanagement; whether
    instance of fraud, waste, or abuse exist; and whether adequate steps for
    detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent records;
as appropriate, circulated, reviewed, and compiled the results of survey
instruments; conducted on-site interviews; and reviewed the substance of
the report and its findings and recommendations with offices, individuals,
organizations, and activities affected by this review.




      SENSITIVE BUT UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                       SENSITIVE BUT UNCLASSIFIED



                                    TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                          5
  Establishing the Special Envoy Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 5
  Coordinating with the Bureau of Near Eastern Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . .                            5
  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        7
RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
  Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
INFORMAL RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




                OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011                  iv


                       SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED




v   OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

•	 The Special Envoy for Middle East Peace is highly regarded, and his office func-
   tions well.
•	 A noteworthy aspect of the Office of the Special Envoy for Middle East Peace
   (S/SEMEP) is its close relationship with the Bureau of Near Eastern Affairs
   (NEA). Rather than create a large special envoy staff, S/SEMEP gains surge
   capacity by drawing on officers from NEA and other bureaus. This arrangement
   saves money and time, leads to closer policy coordination, and is an arrange-
   ment other special envoys should consider emulating. This distinct arrangement,
   however, can make it difficult for NEA office directors to manage workflow
   and can confuse desk officers. S/SEMEP and NEA need to clarify the chain of
   command for tasking NEA staff and for clearing products in which both offices
   have a stake.
•	 While proximity encourages informal information exchange, more formal meet-
   ings are needed between senior level members of the two offices and with the
   Office of Israel and Palestinian Affairs to ensure full exchange of information
   and to coordinate work.

The inspection took place in Washington, DC, between February 9 and March 17,
2011. (b) (6)




         OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011   1


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    CONTEXT

    The Special Envoy’s office is responsible for achieving comprehensive peace in the
    Middle East. It pursues mutually reinforcing tracks to achieve that goal, including:

       •	 Pursuing a diplomatic/political track aimed at negotiating a two-state
          outcome to the Israeli-Palestinian conflict and resuming multilateral negotia-
          tions between Israel and other regional states;

       •	 Coordinating U.S. Government efforts to support the Palestinian Authority
          and the Palestinian people as they develop institutions for statehood and
          further economic growth in the West Bank and Gaza;

       •	 Resuming and concluding Syrian-Israeli and Lebanese-Israeli negotiations;
          and,

       •	 Promoting support for U.S. strategies from the Quartet (comprised of the
          United States, the United Nations, the European Union, and Russia), and
          from key allies, Arab states, and donors.

    During the inspection, there were no direct negotiations, but active engagement took
    place with all parties, on all tracks. Achieving comprehensive peace is a top priority
    of the Department, as described in NEA’s Bureau Strategic and Resource Plan. In
    coordination with S/SEMEP, NEA is actively engaged in monitoring progress toward
    established goals.

    President Obama established this office on the second day of his presidency. Previous
    Administrations housed Middle East peace activities either within NEA or in a
    coordinator’s office under the Secretary of State. Uniquely, the Special Envoy chose
    to associate S/SEMEP closely with NEA, rather than create a large, separate office.
    As noted elsewhere in the report, the Special Envoy operates with a small, actual
    staff and larger, virtual staff borrowed as needed from NEA, other bureaus, and
    U.S. overseas missions. The Special Envoy’s permanent staff includes one special
    coordinator and two deputy envoys. One deputy envoy serves concurrently as chief
    of staff, and the other divides his time between the Department and Consulate
    General Jerusalem. A U.S. Agency for International Development officer is detailed
    to S/SEMEP and accredited to both U.S. Embassy Tel Aviv and Consulate General
    Jerusalem. The Department staff includes an office management specialist, staff
    assistant, and officer detailed from NEA.




2             OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The office does not manage assistance programs, but it plays a major role in coor-
dinating assistance across the U.S. Government. It works with the U.S. Agency for
International Development, the Middle East Partnership Initiative, the Bureau of
International Narcotics and Law Enforcement Affairs, the Bureau of Population,
Refugees and Migration, and the Departments of the Treasury and Defense to ensure
that U.S. efforts integrate the Palestinian institution-building track with the negotia-
tion/political track. This underscores a tenet of U.S. policy with respect to reaching a
two-state solution: that both tracks are mutually reinforcing, and one is not sustain-
able without the other.




          OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011   3


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    EXECUTIVE DIRECTION

    The Special Envoy leads a strong team. The deputy envoys and special coordinator
    are senior officials, each with a well defined portfolio. They consult with each other
    as needed. Given the travel all parties undertake, communication is often informal
    and through email rather than by regular staff meetings. Nonetheless, the operation
    is deft and flexible. Morale is high. S/SEMEP staff is dedicated to achieving peace,
    and they enjoy the trust the Special Envoy has placed in them and the authority they
    have to pursue the mission. The Special Envoy and his staff are attentive to Equal
    Employment Opportunity regulations.

    Achieving peace in the Middle East is a top Administration goal, and consequently
    an area where officials engage deeply and robustly with one another. Through
    regular, informal contact, as well as meetings held by the National Security staff, S/
    SEMEP exchanges information and coordinates with colleagues throughout the
    government. Relations within the Department are excellent. The Special Envoy
    regularly invites National Security staff members to join him when he travels. His
    efforts promote excellent interagency coordination.




4             OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION

ESTABLISHING THE SPECIAL ENVOY OFFICE
The Special Envoy wanted a small staff, anchored to NEA, not a supersized special
envoy office. He reasoned that close affiliation with NEA would allow him to tap
that bureau’s expertise, and to borrow staff as needed, given the ebb and flow of a
negotiation. Currently, one NEA officer is detailed to S/SEMEP; another NEA offi-
cer works nearly full-time for S/SEMEP, while also carrying an NEA portfolio; and
other staff members from the Office of Israel and Palestinian Affairs help as needed.
An expert in NEA’s Office of Regional and Multilateral Affairs helps with water
issues, and a lawyer in the Office of the Legal Adviser supports rule of law programs,
traveling to the region regularly.

The Special Envoy developed a creative and practical method of supporting a special
envoy. He has saved personnel, office space, and equipment costs, and he has given
NEA officers experience in negotiation. Moreover, he ensures that U.S. policy bene-
fits from a breadth of sources and a depth of expertise. The OIG team believes this
is an exemplary way of structuring a special envoy office, which other special envoys
should consider.




COORDINATING WITH THE BUREAU OF NEAR
EASTERN AFFAIRS
Proximity to the NEA front office creates opportunities for frequent information
exchange. Officials from both offices seek each other out regularly for informal brief-
ings. This practice facilitates policy coordination; however, the lack of formal, sched-
uled meetings can lead to gaps in information, as well as uncertainty about which
office will take the lead on a given project. On occasion, it also means that minor
disagreements remain unresolved for too long, complicating life for desk officers and
delaying papers. Establishing regular, senior level meetings would be in keeping with
the best practices of busy policy offices.




          OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011   5


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 1: The Office of the Special Envoy for Middle East
        Peace, in coordination with the Bureau of Near Eastern Affairs, should estab-
        lish and implement a weekly schedule of meetings between senior officials
        in both offices to share information, coordinate responsibilities, and resolve
        differences. (S/SEMEP, in coordination with NEA)


    NEA’s size and breadth of responsibility mean it must organize, task, and process
    assignments in a traditional, hierarchical way. Tasks come from the front office to the
    office director and deputy director, who then assign them to the appropriate members
    of the staff. As a small office, S/SEMEP tends to task informally, including when it
    asks NEA officers to draft papers. Its tendency to task laterally can interfere with an
    office director’s ability to ensure that all the work for which the office is responsible
    is distributed equitably among staff and completed on time. It also makes it difficult
    for desk officers to establish priorities. A parallel problem sometimes occurs in the
    clearance process, when drafting officers do not know whether NEA or S/SEMEP is
    the approving office. The lack of clarity adds unnecessary stress to busy staff, risks
    some projects falling between the cracks, and can delay completion of papers.


        RECOMMENDATION 2: The Office of the Special Envoy for Middle East
        Peace, in coordination with the Bureau of Near Eastern Affairs, should draft
        and implement a formal letter or memorandum of understanding detailing
        an agreed-upon process for assigning work to Bureau staff, and establishing a
        protocol for clearing and approving papers of mutual interest. (S/SEMEP, in
        coordination with NEA)


    The nature of Middle East peace negotiations requires that information be limited
    to a small group of people. S/SEMEP takes that obligation seriously. Staff in NEA’s
    Office of Israel and Palestinian Affairs understand that this is a fact, but they do not
    always have enough information to do their work.

    Informal Recommendation 1: The Office of the Special Envoy for Middle East
    Peace should establish and implement a minimum of twice monthly meetings with
    the Office of Israel and Palestinian Affairs to brief them on cross-cutting issues and
    activities.




6             OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



PUBLIC DIPLOMACY
When S/SEMEP was formed, the Bureau of Public Affairs hired a senior official to
support the office. Since that official has left the Department, S/SEMEP now relies
on NEA’s Office of Press and Public Diplomacy, and it is pleased with the support
NEA provides. S/SEMEP noted to the OIG team that a low public profile is impor-
tant while conducting sensitive negotiations. However, that low profile may hinder
the Department’s ability to explain U.S. policy on Arab-Israeli issues through public
diplomacy in the region, to deepen understanding of the U.S. role, and to reach out
to journalists and domestic groups with an interest in these issues. There is a need to
reconcile the two competing goals of confidentiality and public outreach.


    RECOMMENDATION 3: The Bureau of Near Eastern Affairs, in coordina-
    tion with the Office of the Special Envoy for Middle East Peace, should draft
    and implement a press and public diplomacy strategy for the Office of the
    Special Envoy for Middle East Peace. (NEA, in coordination with S/SEMEP)




          OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011   7


                 SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



    RESOURCE MANAGEMENT

     S/SEMEP – Direct-Hires (Domestic)*

         Foreign Service                      Civil Service                      Consultant                             Total

                  0                                  7                                  2                                  9

    * Numbers pulled from the organization chart provided by S/SEMEP and the staffing pattern.


     S/SEMEP – Direct-Hires (Overseas)
                                Civil Service on             When Actually
      Foreign Service                                                                        Detailees                      Total
                                  Excursions                  Employed

              1                           0                           0                           1                             2


    The Department’s Executive Secretariat handles human resources and travel for
    S/SEMEP; the Executive Office of NEA and the Bureau of South and Central Asian
    Affairs handle all other management tasks. S/SEMEP found the Executive Office’s
    support for office reconfiguration to be inadequate. The OIG report on NEA incor-
    porates this office reconfiguration concern into its discussion of the General Services
    Division. In FY 2010, S/SEMEP received $639,000 in Diplomatic and Consular
    Program funding, much of it spent on travel to the region.

    As with many offices in NEA, S/SEMEP suffers from frequent information system failures
    that cause the office to miss deadlines for the Secretary and the White House. These outages
    also lead to additional, and otherwise unnecessary, overtime. The staff complained about the
    slow response from the consolidated Information Technology Service Center to these recur-
    ring system crashes and slow-downs. In other cases, users who had migrated to classified
    thin-client workstations experienced disruptions. These issues are discussed in OIG report
    ISP-1-11-49, Inspection of the Bureau of Near Eastern Affairs.




    SECURITY
    Bureau security officers from NEA and the Executive Secretariat provide support
    to S/SEMEP. There are no security issues at this time. The office has not had any
    recorded security infractions or violations. Coordination between the S/SEMEP unit
    security officer and NEA is excellent.

8                 OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



FORMAL RECOMMENDATIONS

RECOMMENDATION 1: The Office of the Special Envoy for Middle East Peace,
in coordination with the Bureau of Near Eastern Affairs, should establish and imple-
ment a weekly schedule of meetings between senior officials in both offices to share
information, coordinate responsibilities, and resolve differences. (S/SEMEP, in coor-
dination with NEA)


RECOMMENDATION 2: The Office of the Special Envoy for Middle East Peace,
in coordination with the Bureau of Near Eastern Affairs, should draft and implement
a formal letter or memorandum of understanding detailing an agreed-upon process
for assigning work to Bureau staff, and establishing a protocol for clearing and
approving papers of mutual interest. (S/SEMEP, in coordination with NEA)


RECOMMENDATION 3: The Bureau of Near Eastern Affairs, in coordination
with the Office of the Special Envoy for Middle East Peace, should draft and imple-
ment a press and public diplomacy strategy for the Office of the Special Envoy for
Middle East Peace. (NEA, in coordination with S/SEMEP)




          OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011   9


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     INFORMAL RECOMMENDATION

     Informal recommendations cover operational matters not requiring action by orga-
     nizations outside the inspected unit and/or the parent regional bureau. Informal
     recommendations will not be subject to the OIG compliance process. However, any
     subsequent OIG inspection or on-site compliance review will assess the mission’s
     progress in implementing the informal recommendations.

     Informal Recommendation 1: The Office of the Special Envoy for Middle East
     Peace should establish and implement a minimum of twice monthly meetings with
     the Office of Israel and Palestinian Affairs to brief them on cross-cutting issues and
     activities.




10             OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



PRINCIPAL OFFICIALS

                                                            Name                                                 Arrival Date
                                                                                                                  (Month/year)
Special Envoy                                               Senator George J. Mitchell                                  1/2009
Deputy Envoy and Chief of Staff                             Mara Rudman                                                 5/2009
Deputy Envoy                                                David M. Hale                                               1/2009
Special Coordinator                                         Frederic C. Hof                                             4/2009




          OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011            11


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     ABBREVIATIONS


     Department		Department of State
     NEA	                            Bureau of Near East Asian Affairs
     OIG 	                           Office of Inspector General
     S/SEMEP	                        Office of the Special Envoy for Middle East Peace	
                                     	




12           OIG Report No. ISP-I-11-50 - Inspection of the Office of the Special Envoy for Middle East Peace - May 2011


                    SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
 of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED
